 DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


  The State of Georgia’s Management of
    State Homeland Security Grants
             Awarded During
     Fiscal Years 2002 through 2004




OIG-08-22                   January 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         January 23, 2008

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports published as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

The attached report presents the results of the audit of the State of Georgia’s management of State
Homeland Security Grants awarded during Fiscal Years 2002 through 2004. We contracted with
the independent public accounting firm Cotton & Company LLP to perform the audit. The
contract required that Cotton & Company perform its audit according to generally accepted
government auditing standards and guidance from the Office of Management and Budget and the
Government Accountability Office. Cotton & Company’s report contains nine recommendations
in six areas in which State management of the grant funds could be improved.

Cotton & Company is responsible for the attached auditor’s report dated October 3, 2007, and
conclusions expressed in the report. The recommendations herein have been discussed in draft
with those responsible for implementation. It is our hope that this report will result in more
effective, efficient, and economical operations. We express our appreciation to all of those who
contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
October 3, 2007

Mr. James L. Taylor
Deputy Inspector General
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Taylor:

Cotton & Company LLP performed an audit of the State of Georgia’s Management of the
Department of Homeland Security Grants Awarded During Fiscal Years 2002 through 2004.
The audit was performed in accordance with our Task Order TPD-ARC-06-K00208, dated
May 17, 2006.

This report presents audit results and recommendations to help improve the State’s
management of the audited State Homeland Security Grant Programs. These programs are
commonly referred to as first responder grant programs.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2003 revision. The audit was a performance audit as defined by Chapter 2 of the Standards
and it included a review and report of program activities with a compliance element.
Although the audit report comments on costs claimed by the State, we did not perform a
financial audit, the purpose of which would be to render an opinion on the agency’s financial
statements or the funds claimed in the Financial Status Reports submitted to the Department
of Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have any questions, or if
we can be of further assistance, please call me at 703.836.6701.

Very truly yours,

COTTON & COMPANY LLP



Sam Hadley, CPA
Partner
Table of Contents/Abbreviations


Executive Summary ......................................................................................................................         1

Background ...................................................................................................................................   3

Results of Audit ............................................................................................................................. 8
    The 2003 Strategy Did Not Identify Needs or Address Evaluation Processes Adequately ....                                                   8
    Controls For Centralized Purchases of Equipment Were Not Effective ................................. 11
    Controls and Processes For Monitoring Subgrantees Were Not Effective ............................. 18
    Controls For Claimed Costs Were Not Effective .................................................................... 22
    Funds Were Not Properly or Timely Allocated ...................................................................... 24


Appendices
   Appendix                  Objectives, Scope, and Methodology .............................................................                    28
   A:
   Appendix                  Georgia Office of Homeland Security Organization Chart .............................                                30
   B:
   Appendix                  State of Georgia Response ..............................................................................            31
   C:
   Appendix                  Report Distribution .........................................................................................       40
   D:

Abbreviations
   DHS                        Department of Homeland Security
   FEMA                       Federal Emergency Management Agency
   FY                         Fiscal Year
   OIG                        Office of Inspector General
Executive Summary

               Cotton & Company LLP completed an audit of the State of Georgia’s
               Management of the Department of Homeland Security Grants Awarded
               During Fiscal Years 2002 through 2004. The objectives of the audit were
               to determine whether the State (1) effectively and efficiently implemented
               first responder grant programs, (2) achieved the goals of the programs, and
               (3) spent funds in accordance with grant requirements. The audit goal was
               to identify problems and solutions that would help the State of Georgia
               prepare for and respond to terrorist attacks. Appendix A contains details
               on audit objectives, scope, and methodology.

               The audit included a review of approximately $115.2 million awarded to the
               State of Georgia from the Fiscal Year 2002 State Domestic Preparedness
               Program, Fiscal Year 2003 Parts I and II of the State Homeland Security
               Grant Program, and the Fiscal Year 2004 State Homeland Security Grant
               Program.

               The Georgia Emergency Management Agency managed the programs,
               commonly referred to as first responder grant programs. The Georgia
               Emergency Management Agency has been designated as the State
               Administrative Agency. The Governor of each state designates a State
               Administrative Agency to apply for and administer funds awarded under
               Homeland Security grant programs. The Georgia Emergency Management
               Agency is the only agency eligible to apply for funds.

               Most of the findings and conditions contained in this report generally are
               areas where the State of Georgia could implement improved internal controls
               over grant processes and procedures, including more effective oversight. Our
               findings, summarized here, are discussed along with appropriate
               recommendations in detail in the body of this report. The State of Georgia’s
               2003 strategy did not identify needs or address evaluation processes
               adequately. The controls for centralized purchases of equipment, controls
               and processes for monitoring subgrantees, and controls for claimed costs
               were not effective. Finally, funds were not properly or timely allocated.

               Although the scope of this audit included a review of costs claimed, a
               financial audit of those costs was not performed. Accordingly, we do not
               express an opinion on the State of Georgia financial statements or funds
               claimed in the Financial Status Reports submitted. The Office of Inspector
               General, however, retained us to address the three audit objectives as they
               related to the overall audit effort:


          The State of Georgia’s Management of State Homeland Security Grants
                     Awarded During Fiscal Years 2002 through 2004

                                        Page 1
     1. Did the State of Georgia implement first responder grant programs
         effectively and efficiently?

         Findings 2, 3, and 4 (pages 11, 18, and 22 respectively) identify several
         internal control weaknesses in the State of Georgia’s centralized
         purchases, subgrantee monitoring, and claimed costs. With these
         exceptions noted, this objective was accomplished, and the State of
         Georgia implemented the grant programs effectively and efficiently.

     2. Did the State of Georgia achieve program goals?

         Finding 1 (page 8) identified some components of the 2003 strategy that
         were incomplete, such as inadequate evaluation processes. In addition,
         Finding 3 (page 18) deals with ineffective controls for the monitoring of
         subgrantees. With these exceptions, this objective was accomplished, and
         the State of Georgia achieved program goals.

     3. Did the State of Georgia spend funds according to grant requirements?

         Findings 3 and 5 (pages 18 and 24) indicate that the State of Georgia did
         not comply with certain grant requirements. Based on the monetary
         impact of these issues, we do not consider this objective to have been
         accomplished, because about 9 percent of the $115.2 million covered in
         our audit scope was not spent according to grant requirements.

     We have developed several recommendations related to internal controls.
     We recommend that the Federal Emergency Management Agency ensure that
     the State of Georgia implements controls for processes related to strategy
     development, develops controls to ensure that obligations to local
     jurisdictions comply with grant guidelines, implements controls regarding
     centralized procurements, and implements controls and monitoring processes
     for its subgrantees.

     We also recommend that the Federal Emergency Management Agency
     determine the effect that an award to a State agency had on local jurisdictions,
     and if costs should be questioned as a result of such awards. We recommend
     that the agency determine the disallowance of costs claimed due to inadequate
     labor distribution. Finally, we recommend that the agency require the State of
     Georgia to monitor procurement activities of all State agencies.

     In addition, during our review of sampled claimed costs, we did not identify
     unallowable program costs that we classify as questioned costs, nor did we
     expand our testing to identify all questioned costs claimed. The State of
     Georgia may, however, identify additional questioned costs as closeout
     packages (identifying actual purchases) are submitted by local jurisdictions
     and reviewed by the State of Georgia.

The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 2
Background

                  The Homeland Security Grant Program is a federal assistance grant
                  program administered by the U.S. Department of Homeland Security
                  (DHS), Grant Programs Directorate within the Federal Emergency
                  Management Agency (FEMA). The current Grant Programs Directorate,
                  hereafter referred to as FEMA, began with the Office of Domestic
                  Preparedness which transferred from the Department of Justice to DHS in
                  March 2003. The Office of Domestic Preparedness was subsequently
                  consolidated into the Office of State and Local Government Coordination
                  and Preparedness which, in part, became the Office of Grants and Training,
                  and which subsequently became part of FEMA.

                  DHS is responsible for enhancing the capabilities of state and local
                  jurisdictions to respond to, and mitigate the consequences of, incidents of
                  terrorism. FEMA provides grant funds to aid public safety personnel (e.g.,
                  first responders) in acquiring specialized training, exercises, and equipment
                  necessary to safely respond to and manage terrorist incidents involving
                  chemical, biological, radiological, nuclear or explosive weapons, including
                  weapons of mass destruction. First responders include firefighters, police,
                  paramedics, and others. The grants are collectively referred to as “first
                  responder” grants. These types of grants within the Homeland Security
                  Grant Program provide federal funding to help states and local agencies
                  enhance their capabilities to prevent, deter, respond to, and recover from
                  threats or acts of terrorism.

                  State governors appoint a State Administrative Agency responsible for
                  managing and administering homeland security grant funds according to
                  established federal guidelines. The State Administrative Agency also
                  serves as the pass-through entity for funds subgranted to local, regional, or
                  other state government agencies. The Governor of Georgia designated the
                  Georgia Emergency Management Agency within the Georgia Office of
                  Homeland Security to serve as the State Administrative Agency.

                  The State of Georgia received approximately $115.2 million in funds from
                  the Homeland Security Grant Program during Fiscal Years (FYs) 2002
                  through 2004. During this period, subgrants were awarded to
                  approximately 415 State agencies, local agencies, and first responder
                  agencies. We reviewed the following programs:




             The State of Georgia’s Management of State Homeland Security Grants
                        Awarded During Fiscal Years 2002 through 2004

                                           Page 3
     First Responder Grant Programs

     FY 2002 State Domestic Preparedness Program grants provided
     financial assistance to each of the nation’s states, U.S. Territories, District
     of Columbia, and Commonwealth of Puerto Rico. This program provided
     financial assistance for:

         •    Purchase of specialized equipment to enhance the capability of state
              and local agencies to respond to incidents of terrorism involving the
              use of weapons of mass destruction.

         •    Protection of critical infrastructure.

         •    Design, development, conduct, and evaluation of weapons of mass
              destruction exercises.

         •    Administrative costs associated with implementing statewide
              domestic preparedness strategies.

     FY 2003 State Homeland Security Grant Program Part I funding
     provided financial assistance for:

         •    Purchase of specialized equipment to enhance the capability of state
              and local agencies to prevent and respond to incidents of terrorism
              involving the use of chemical, biological, radiological, nuclear, or
              explosive weapons.

         •    Protection of critical infrastructure and prevention of terrorist
              incidents.

         •    Design, development, conduct, and evaluation for chemical,
              biological, radiological, nuclear, or explosive exercises.

         •    Design, development, and conduct of state chemical, biological,
              radiological, nuclear, or explosive training programs.

         •    Updating and implementing each state’s homeland security strategy.

     FY 2003 State Homeland Security Grant Program Part II provided
     supplemental funding available through FY 2003 for the State Homeland
     Security Grant Program to enhance first responder preparedness. Part II
     funds also were available to mitigate costs of enhanced security at critical
     infrastructure facilities during hostilities with Iraq and future periods of
     heightened threat.


The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 4
     FY 2004 Homeland Security Grant Program continued to provide states,
     U.S. Territories, District of Columbia, and Commonwealth of Puerto Rico
     with funding for planning, purchasing equipment, training, managing, and
     administering emergency prevention, preparedness, and response
     personnel. Program funding provided states and territories with
     opportunities to more effectively fill the gaps between their needs and
     existing capabilities, as detailed in their updated Homeland Security
     Strategies.

     The State of Georgia was awarded approximately $115.2 million from
     these four grant programs. Funded activities and amounts are shown in
     Table 1.

                                           Table 1
                         G eo rg ia Hom e lan d S e cu r ity Gra nt A wa rd s
                                     FY s 2002 throug h 2004
                                                     Grant Program
                                                           (‘000 s)
                                            2003 State       2003 State
                                            Homeland         Homeland 2004 State
                              2002 State     Security         Security    Homeland
                               Domestic       Grant            Grant       Security
                             Preparedness Program             Program       Grant
     Funded Activity           Program         Part I          Part II    Program      Totals
     Equipment
     Acquisition                   $7,451         $9,956             N/A        N/A    $17,407
     Exercises                        346           2,489            N/A        N/A      2,835
     Training                        N/A              747            N/A        N/A        747
     Planning and
     Administration                  N/A              996            N/A        N/A       996
     First Responder
     Preparedness                    N/A              N/A        $32,568        N/A     32,568
     Critical Infrastructure
     Protection                      N/A              N/A           5,011       N/A      5,011
     State Homeland
     Security                        N/A              N/A            N/A    $42,214     42,214
     Law Enforcement
     Terrorism Prevention
     Program                         N/A              N/A            N/A      12,526    12,526
     Citizens Corps                  N/A              N/A            N/A         877       877

     Totals                       $7,797         $14,188        $37,579     $55,617 $115,181


     Homeland Security in the State of Georgia

     The Governor created the Office of Homeland Security by Executive Order
     on January 13, 2003, and established the State’s Homeland Security
     Director as a cabinet-level position. At that time, the Office of Homeland
     Security included the Homeland Security Task Force, Georgia Information

The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 5
     Sharing and Analysis Center, and Georgia Emergency Management
     Agency. (See Appendix B for the Georgia Office of Homeland Security
     Organization Chart.)

     The Georgia Emergency Management Agency’s mission is to provide a
     comprehensive and aggressive all-hazards approach to mitigation,
     preparedness, response, recovery, and special events. Its mission also
     includes a mandate to protect life and property in the State of Georgia and
     to prevent or reduce the negative impact of natural and man-made events in
     Georgia.

     Daily responsibilities of emergency management are carried out by the
     Georgia Emergency Management Agency’s six functional divisions:

         •    Finance Division: Responsible for grants, personnel, payroll, and
              other support functions.

         •    Hazard Mitigation Division: Responsible for the State Mitigation
              Plan and administering Hazard Mitigation Grants, the Flood
              Mitigation Program, and the Pre-Disaster Mitigation Program.

         •    Operations Division: Responsible for statewide planning,
              operations support, communications, training, and consequence
              management.

         •    Public Affairs Division: Responsible for constituent services,
              public affairs support, legislative liaison, multi-media support, and
              information technology.

         •    Public Assistance Division: Responsible for mutual aid and
              coordination of financial assistance for state of emergencies and
              Presidential declarations. Subgrantees receiving State of Georgia
              grant funds deal routinely with Public Assistance staff. Public
              Assistance administers subgrantee agreements, approves and
              processes payments to subgrantees, and maintains all documentation
              submitted by the subgrantee.

         •    Terrorism Emergency Response and Preparedness Division:
              Responsible for critical infrastructure analysis, terrorism incident
              management and response, consequence management coordination
              and training, All Hazards Councils programs, federal homeland
              security grant coordination, critical infrastructure analysis, fire
              services coordination, agroterrorism preparedness, exercise and
              training, intelligence gathering and analysis, and homeland security
              grant services.

The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 6
              Coordination of all first responders and local jurisdictions in the
              State of Georgia is a top priority for the Terrorism Emergency
              Response and Preparedness Division. All of its programs are
              specifically designed to assist and meet local needs. The division
              also has partnered with other State agencies through the Homeland
              Security Task Force, Counter Terrorism Task Force, and Georgia
              Information Sharing and Analysis Center to ensure a smooth and
              effective terrorism response capability. The Terrorism Emergency
              Response and Preparedness Division also works closely with federal
              partners (DHS) to coordinate funding, training, response, and
              preparedness programs.

     We coordinated audit efforts through the Terrorism Emergency Response
     and Preparedness Division. As such, we visited the Georgia Emergency
     Management Agency headquarters on several occasions to conduct
     entrance and exit conferences and interviews, collected documents, and
     analyzed data. We also reviewed subrecipient operations at eight locations
     in the State of Georgia. Details about our objectives, scope, and
     methodology are in Appendix A.




The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 7
Results of Audit

     The 2003 Strategy Did Not Identify Needs or Address Evaluation
     Processes Adequately
                 The Georgia’s 2003 State Homeland Security Strategy was an incomplete
                 document that contained inadequate or insufficient information or data.
                 The 2003 strategy did not adequately or fully address evaluation processes
                 for preparedness, goals, and objectives as required by DHS. In addition, it
                 contained data inaccuracies that were not validated according to DHS
                 instructions. As a result, the Georgia Emergency Management Agency
                 could not demonstrate how it evaluated the progress of several of its goals
                 and objectives and, with unreliable data, could not be assured that the
                 strategy was a reliable document that accurately assessed needs.
                 Management from the State of Georgia informed us that DHS approved the
                 strategy, indicating that there was a greater need for timely allocation and
                 less emphasis on detailed needs and evaluation processes.

                 Georgia’s 2003 State Homeland Security Strategy

                 The 2003 strategy was not complete or reliable. First, the document
                 contained the following disclaimers regarding data inaccuracies for
                 FYs 2003 and 2004:

                     •    Data in some categories were demonstrably incorrect.
                     •    The survey reported the number of hazardous material teams to be
                          92, while only 38 such teams existed.
                     •    Jurisdictions may have reported on the same threats and
                          vulnerabilities.
                     •    The survey offered no means of qualitatively assessing actual
                          dangers posed by locally perceived threats and vulnerabilities.
                     •    The 715 Potential Threat Elements identified statewide were
                          exaggerated and have not been validated.

                 DHS provided a timeframe for states to validate data collected for the 2003
                 strategy, as illustrated in its Information Bulletin No. 96, dated January 21,
                 2004, State and Urban Area Homeland Security Assessment Data:

                          While strategies must be submitted to ODP [Office of
                          Domestic Preparedness] by January 31, 2004, the data
                          validation period will be extended to permit states or urban
                          areas with previously submitted and/or approved strategies
                          to review the assessment data to ensure the data’s accuracy
                          and consistency. During the data validation period, your
                          state should re-verify its homeland security assessment data
            The State of Georgia’s Management of State Homeland Security Grants
                       Awarded During Fiscal Years 2002 through 2004

                                          Page 8
              to ensure that it accurately reflects your state’s risk,
              capabilities and needs.

     The second issue that prevented the 2003 strategy from being viewed as a
     complete document was the absence of a viable evaluation plan. On
     January 13, 2004, DHS issued Information Bulletin No. 95, Guidance for
     developing the evaluation plan for the State Homeland Security Strategy
     and Urban Area Security Strategy. The guidance explained the purpose
     and content of the evaluation plans:

              The evaluation plan is a critical element of the strategy and
              is tied to its ultimate approval by the Department of
              Homeland Security. Grantees need to demonstrate that
              important issues associated with evaluating progress have
              been contemplated thoroughly and that a plan is in place to
              make sure that implementation of strategic goals and
              objectives is tracked from the beginning. Consequently, the
              evaluation plan should provide details about the membership
              of key evaluation working groups, the frequency of working
              group meetings, their use of evaluation tools, and the
              development of corrective action plans.

     The State of Georgia did not fully develop the evaluation process for
     assessing progress toward goals and objectives of the 2003 strategy. Gaps
     involving Section 6: Goals, Objectives and Implementation Steps, of the
     2003 strategy existed, which the State of Georgia acknowledged as an area
     that it had not fully developed or addressed as required. For example, for
     the five goals identified in the 2003 strategy, the State of Georgia identified
     how each goal would be implemented through planning, training,
     organization, or equipment acquisition. The State provided a document that
     demonstrated implementation progress (or gaps in the progress) through
     February 2007. Each of the goals had several elements that were
     implemented and several elements that were not. Where goals and
     objectives were not fully implemented, evaluation of progress in meeting
     the objectives was difficult.

     DHS reported in an internal memorandum on February 3, 2006, that the
     State of Georgia did not have an evaluation mechanism for its programs.
     The Georgia Emergency Management Agency also acknowledged in a
     February 2007 meeting with us that its evaluation plan was still lacking,
     expressing the need to evaluate the goals and needs enumerated in the
     strategy.

     The State of Georgia would benefit from using the guidance that
     Information Bulletin No. 95 envisioned, emphasizing the key components


The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                              Page 9
       contained in that bulletin, especially the use of evaluation tools and
       corrective action plans.

Recommendations

       We recommend that the Administrator, Federal Emergency Management
       Agency, require the State of Georgia to:

       1. Develop internal controls that result in a comprehensive strategy that
          accurately identifies its needs and also identifies its plans to evaluate
          performance goals and objectives, as envisioned in Information Bulletin
          No. 95. Plans should include or address the following questions:

           •    Who will be part of the evaluation process?
           •    What meetings have been developed and scheduled to evaluate
                progress?
           •    How will progress be evaluated?
           •    How will mid-course adjustments be made if goals and objectives
                change, if progress toward them stalls, or if mass casualty disasters
                occur?

       2. Establish guidelines for minimum periodic meetings, timetables for
          evaluation reviews, viable evaluation metrics, and mandatory progress
          reports to demonstrate progress toward meeting goals and objectives.

State of Georgia Comments

       The State of Georgia does not concur with Auditor’s Finding 1 for the
       following reasons:

       DHS approved the 2003 State Strategic Plan. The State of Georgia
       complied with the requirements, which were a condition precedent to
       receiving the grant award. The State of Georgia’s emphasis was on
       administering the grant to effectively enhance capabilities according
       to the goals of the grant program due to all levels of government
       placing a greater emphasis, during the grant years under review, in
       building capabilities than on developing performance measures.

       The State of Georgia concurs with the recommendation to implement
       improvements in the performance measurement procedures. It has
       institutionalized performance measures and is currently formalizing
       performance measure procedures.




  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 10
     Federal Emergency Management Agency Verbal Comments

            Subsequent strategies from the State of Georgia addressed the issues
            noted in the recommendation. In addition, FEMA reviews all
            strategies as part of its program monitoring process.

     Auditor’s Analysis

            The responses from the State of Georgia and FEMA do not adequately
            address the recommendations. The State of Georgia did not address the area
            of establishing guidelines and timetables for demonstrating progress toward
            its goals. In addition, while the subsequent strategies may incorporate both
            needs and plans to evaluate performance goals and objectives, as FEMA
            stated, FEMA’s verbal comments did not address how the State of Georgia
            plans to establish internal controls to ensure that future strategies are
            accurate and complete, or if the State will establish guidelines to
            demonstrate how progress toward meeting goals and objectives will be
            achieved.

            The Administrator, Federal Emergency Management Agency, should
            provide corrective actions for the two recommendations and a plan to
            implement those corrective actions within 90 days.


Controls For Centralized Purchases of Equipment Were Not Effective
            The State of Georgia did not have effective controls over centralized
            Georgia Search and Rescue equipment and hazardous material equipment
            purchases made through the “prime vendor” program with the Defense
            Logistics Agency. Under State of Georgia procurement laws, the State of
            Georgia was allowed to use the vendor for equipment purchases. The
            entire acquisition function was a multi-layered process involving several
            entities; controls among the principal parties involved were critical to
            successful procurement management. However, the State of Georgia had
            insufficient controls. Thus, there is no assurance that invoices totaling
            approximately $10.9 million and subsequent State of Georgia payments to
            the Defense Logistics Agency of approximately $10.1 million were
            accurate or reliable.

            Centralized Purchases

            The prime vendor, Fisher Scientific, supplied Georgia Search and Rescue
            equipment and hazardous material equipment to first responders in the State
            of Georgia using centralized purchases. The multi-layered ordering,
            shipping, receiving, and payment processes involved two divisions at the
            Georgia Emergency Management Agency, the Defense Logistics Agency,

       The State of Georgia’s Management of State Homeland Security Grants
                  Awarded During Fiscal Years 2002 through 2004

                                    Page 11
     Fisher Scientific (Fisher), a designated warehouse inventory custodian, and
     numerous local jurisdictions and State agencies in the State of Georgia.

     The Georgia Emergency Management Agency generally provided Fisher
     with budget worksheets, viewed as purchase orders by Fisher. Equipment
     prices were based on a listing that the Defense Logistics Agency supplied
     to the Georgia Emergency Management Agency. Fisher would deliver the
     equipment to the user, provide the user with a shipping invoice, and
     subsequently bill the Defense Logistics Agency, which simultaneously paid
     Fisher while invoicing the State of Georgia for amounts paid to Fisher.
     Invoices furnished by the Defense Logistics Agency to the State of Georgia
     differed, however, from invoices that the Defense Logistics Agency
     received from Fisher. That is, the Defense Logistics Agency would convert
     the Fisher invoice into its own format, using a 15-digit billing code. As a
     result, the State of Georgia, could not interpret the billing code that the
     Defense Logistics Agency invoices contained.

     The State of Georgia did not adhere to the type of guidance referenced in
     the Code of Federal Regulations Title 28 Part 66 regarding effective control
     and accountability. Therefore, control processes were inadequate
     throughout the ordering, shipping, and payment cycles. For example:

         •    The Georgia Emergency Management Agency did not always
              coordinate orders with local jurisdictions when it prepared budget
              worksheets. In certain instances, the local jurisdiction did not know
              what quantities or items were ordered, as well as the actual per-unit
              prices.

         •    Fisher delivered equipment to local jurisdictions and provided a
              shipping invoice, but local jurisdictions did not provide a copy of
              the invoice to the Georgia Emergency Management Agency, which
              processed the invoice.

         •    Defense Logistics Agency paid Fisher but did not provide a copy of
              the Fisher invoice to Georgia Emergency Management Agency.
              Instead, Defense Logistics Agency used another invoicing format to
              bill the State of Georgia.

         •    The Defense Logistics Agency invoice that the State of Georgia
              received contained a 15-digit billing code that the Georgia
              Emergency Management Agency could not interpret. The Georgia
              Emergency Management Agency, therefore, had to contact Fisher to
              receive cost breakdowns.




The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 12
     Additionally, a requirement for local jurisdictions to inventory equipment
     immediately upon receipt from Fisher was not in place. One equipment
     order in excess of $3 million delivered by Fisher to an Atlanta warehouse
     was not inventoried immediately. In that instance, the chain-of-custody
     processes needed improvement. Equipment from this Fisher shipment was
     intended for use by eight Georgia Search and Rescue-capable fire
     departments in the State of Georgia and was centrally-initiated by the
     Georgia Emergency Management Agency through a series of budget
     worksheets prepared by its personnel.

     Fisher delivered the multi-million dollar Georgia Search and Rescue
     equipment intermittently to the warehouse, planning its shipments as a
     series of multiple trips to accommodate the eight fire departments. Because
     the State of Georgia designated that the eight fire departments be handled
     as four distinct two-member teams, Fisher shipped the equipment as
     separate deliveries to the four designated team trailers. Each team received
     about $800,000 in Georgia Search and Rescue equipment.

     An assistant fire chief from the Cobb County Fire Department was
     designated as custodian for Georgia Search and Rescue equipment
     delivered to the Atlanta warehouse by Fisher. The chief often was not
     immediately available when the Fisher shipments arrived at the warehouse,
     because of his assigned work schedule. Therefore, an administrative fire
     department employee located at the warehouse would sign for the
     equipment and notify the chief that a shipment had arrived. The
     administrative employee did not verify equipment delivered by Fisher, and
     the chief may not have arrived at the warehouse to conduct an inventory
     assessment until days after the delivery.

     The chief customarily would reconcile actual physical Georgia Search and
     Rescue equipment delivered by Fisher against shipping invoices that the
     administrative employee signed. As a result of these efforts, the chief
     maintained a spreadsheet that identified all missing items from the four
     Georgia Search and Rescue teams that initially had their equipment shipped
     to the Atlanta warehouse. In addition, the chief maintained four binders
     representing invoices and packing slips. This information maintained by
     the chief has not, however, been used to support payments to Defense
     Logistics Agency.

     Reconciliations

     The State of Georgia performed several reconciliations, but it did not
     coordinate this work, and the reconciliations were incomplete.




The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 13
     Warehouse Reconciliation - The chief’s reconciliations of warehouse
     inventory (of the four two-member teams), which was one of three separate,
     uncoordinated reconciliations regarding Fisher shipments, did not always
     occur immediately as the shipment arrived at the warehouse. An immediate
     verification of equipment received could quickly resolve issues regarding
     inaccurate invoicing and also establish accountability between Fisher and
     the State of Georgia if inventory tampering occurred. Even though these
     reconciliations did not always occur upon equipment arrival, they were far
     more accurate than other efforts undertaken by the State of Georgia and
     likely produced the best results. The reconciliations showed that Fisher had
     not shipped more than 2,300 items that the State of Georgia ordered for the
     four two-member teams.

     Terrorism Emergency Response and Preparedness Division
     Reconciliation - This division reconciled warehouse inventories (resulting
     from shipments to the four two-member teams) from budget worksheets to
     the hard-count inventories on hand at local jurisdictions, requiring the latter
     users to certify their inventories to the division. These reconciliations were
     not conducted under the best conditions, as the Terrorism Emergency
     Response and Preparedness Division relied on local jurisdictions to
     reconcile equipment that was delivered as far back as 2 years in some cases.
     In addition, one of the local jurisdictions had not certified its inventory to
     the division as of February 2007.

     Public Assistance Division Reconciliation - The Public Assistance
     Division attempted to reconcile monies due Defense Logistics Agency by
     comparing budget worksheets against Defense Logistics Agency invoices.
     The reconciliations included all Fisher orders from early 2004 through
     2006, totaling about $10.8 million (not just warehouse equipment deliveries
     of the four two-member teams which totaled about $3.2 million). In
     December 2006, the Public Assistance Division provided an accounting of
     the outstanding amount due Defense Logistics Agency:


        Amount Fisher billed to and paid by Defense Logistics Agency   $10,878,029
        Amount State of Georgia paid Defense Logistics Agency           10,032,694

        Amount State of Georgia owes Defense Logistics Agency            $845,335

     While this reconciliation identifies the difference between billings and
     amounts paid, additional reconciliations are necessary because:

         •    The State of Georgia has no assurance that local jurisdictions
              received the equipment ordered.
         •    More important, the State of Georgia did not use Fisher shipping
              invoices as reconciling documents.

The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 14
     Due to the lack of coordination and incomplete reconciliations, the State of
     Georgia requested nine extensions that cited the Defense Logistics Agency-
     Fisher billing system as a reason for not being able to meet grant closeout
     requirements, as shown in the two quotes below. (The first quote refers to
     the FY 2002 grant, and the extension request is dated December 13, 2006.)

              …The complicated prime vendor's billing system continues
              to challenge the State with paying existing bills and
              identifying de-obligated funding balance….

              …It is clear that while our previous challenges with the
              Defense Logistics Agency and Fisher Scientific have
              markedly improved, we are still encumbered by a
              complicated billing and accounting system….

     While we do not know how much of the outstanding $845,335 amount due
     to the Defense Logistics Agency was attributable to the FY 2002 grant, the
     FEMA Preparedness Officer informed us that the State of Georgia closed
     out the grant in February 2007. Further, FEMA received a report from the
     State of Georgia that purportedly reconciled the FY 2002 grant; we did not,
     however, receive it. Additionally, there is no reconciliation of equipment
     received (by the jurisdictions) to payments made to Fisher.

     Overcharges - In January 2005, the State of Georgia processed a Defense
     Logistics Agency-Fisher invoice for Budget Worksheet No. 0159, funded
     by the FY 2003 Part II grant. The invoice listed 13 line items for
     equipment and was billed at a total cost of $25,100. The State of Georgia
     received and paid an identical invoice in July 2005 and again in August
     2005. In September 2005, Defense Logistics Agency-Fisher issued a credit
     of $25,099.51, which would effectively cancel the August 2005 invoice.
     Based on records we reviewed, however, the July 2005 invoice represents a
     double-billing and payment for Budget Worksheet No. 0159.

     Undelivered Equipment - Undelivered equipment may affect the FY 2002
     grant closeout. A special operations fire chief from a local jurisdiction that
     received Georgia Search and Rescue equipment and hazardous material
     equipment from Fisher stated that the State of Georgia did not request any
     input from his jurisdiction regarding equipment ordered on budget
     worksheets. The chief provided a copy of a budget worksheet showing that
     the State of Georgia ordered 10 reusable chemical suits for his fire
     department. The chief stated in an email to the Georgia Emergency
     Management Agency, however, that Fisher did not deliver the suits.




The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 15
                           Nevertheless, invoices obtained from the State of Georgia showed that the
                           Defense Logistics Agency-Fisher billed the State of Georgia for 22
                           chemical suits delivered to the assistant chief’s fire department. Defense
                           Logistics Agency-Fisher invoiced the 22 suits at a total cost of $33,462.00.1
                           The budget worksheet, funded from the FY 2002 grant, was closed-out with
                           a $1,459 balance.2 If Fisher did not deliver the reusable chemical suits to
                           the local jurisdiction, the State of Georgia may have paid for equipment that
                           was not delivered.

                           Conclusion

                           The State of Georgia’s control environment over the Defense Logistics
                           Agency/Fisher processes was incomplete at nearly every phase, and action
                           is needed to strengthen controls. As a first step in achieving effective
                           controls, a full accounting and reconciliation of invoices is needed. In
                           addition, as billing errors are identified, the State of Georgia did not obtain
                           vendor refunds, as appropriate. The reconciliation also did not include a
                           procedure that identifies equipment that local jurisdictions either did not
                           order or did not receive. In those instances, refunds from Defense Logistics
                           Agency/Fisher also did not occur.

                  Recommendations

                           We recommend that the Administrator, Federal Emergency Management
                           Agency, require the State of Georgia to:

                           1. Review expenditures incurred from the prime vendor to identify
                              overcharges and equipment delivered in error and undelivered, and
                              recover costs where applicable.

                           2. Implement controls over centralized procurements and inventories to
                              ensure that local jurisdictions receive intended inventories, and that
                              payments are made only for equipment ordered and received.

                  State of Georgia Comments

                           The State of Georgia does not concur with Auditor’s Finding 2 for the
                           following reasons:

                           The State of Georgia does not concur that it did not have “effective
                           controls.” According to the State of Georgia, the Audit Report overstates
                           the issue regarding the purchases made through the DHS-approved prime
                           vendor, the Defense Logistics Agency. Regarding the State of Georgia’s

1
    The invoice did not indicate if the chemical suits were “reusable.”
2
    The Balance on Budget Worksheet No. 0301 was provided to us as of January 11, 2007.

                      The State of Georgia’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004

                                                   Page 16
       use of the DHS-approved prime vendor, the issues are being resolved by an
       internal reconciliation.

       The finding that the State of Georgia “had weak and absent controls” is
       inaccurate, overbroad, and not supported by the examples given in the
       report. The State of Georgia did coordinate both the order and receipt of
       equipment with local jurisdictions. All subgrantees were informed of the
       award and what the order would include through the budget worksheet
       process. Fire personnel responsible for deliveries of Georgia Search and
       Rescue equipment to the warehouse in Atlanta have provided paperwork
       showing receipt of the equipment. The State of Georgia’s Fire Services
       Program Manager communicated with the teams throughout the process to
       assure receipt, training, and use of the equipment. The Georgia Search and
       Rescue equipment was in use by the Georgia Search and Rescue teams by
       May 2004 to save lives. To say there are no chain-of custody controls is an
       overstatement.

       The State of Georgia nonetheless concurs with the recommendations, which
       reflect the process that the State currently utilizes and continues to practice.

Federal Emergency Management Agency Verbal Comments

       FEMA concurs with the finding. FEMA stated that the State of Georgia
       needs to ensure that costs are reasonable, allocable, and allowable under the
       terms and conditions of the grant awards. FEMA will request that the
       internal controls within and throughout the State of Georgia’s acquisition
       processes provide a reasonable level of assurance. In addition, FEMA
       will review the State of Georgia’s reconciliation method to ensure the
       integrity of monies paid to the Defense Logistics Agency-Fisher.

Auditor’s Analysis

       The report language was modified to change “weak and absent controls” to
       “insufficient controls.” In addition, the language regarding
       chain-of-custody controls was changed from “especially weak” to “needed
       improvement.”

       Based on the verbal concurrence from FEMA, and the written concurrence
       from the State of Georgia, we believe that both parties have addressed the
       recommendations adequately.

       The Administrator, Federal Emergency Management Agency, should
       provide corrective actions for the two recommendations and a plan to
       implement those corrective actions within 90 days.



  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 17
Controls and Processes For Monitoring Subgrantees Were Not
Effective

            The State of Georgia did not implement a comprehensive monitoring
            program to measure subgrantee performance. For example, the State had
            not established close-out processes, enforced progress reporting
            requirements, conducted site visits at its subgrantee locations, evaluated
            subgrantee financial reporting capabilities, and ensured that information
            used to monitor unused obligations was current. The State of Georgia
            monitoring and oversight processes were inadequate even though DHS had
            made previous recommendations for improvement in this area. As a result
            of these deficient processes, the State of Georgia could not determine the
            amount of unused grant funds and re-obligate them to other funding
            priorities in a timely manner.

            Close-out Processes - The State of Georgia maintained spreadsheets that
            identified expenditure information by subgrantee. As subgrantees
            submitted invoices and cancelled checks, the State of Georgia drew down
            grant funds to reimburse them. In some instances, the State of Georgia
            would determine if the subgrantee had completed its grant spending,
            notably when expenditure amounts equaled the grant award amount, thus
            creating a zero balance for the award. However, in the absence of this
            cancelling-out effect, or a local jurisdiction voluntarily notifying the State
            of Georgia that it had completed its grant spending authorization, the State
            of Georgia did not have a process to identify when a subgrantee had funds
            that could be re-obligated.

            When grant expenditures were less than the grant award amount and shown
            as such on the aforementioned spreadsheets, the State of Georgia typically
            assumed that funds still remained to be spent, and subsequently carried the
            subgrantee’s balance as an unexpended obligation. Three of the seven local
            jurisdictions we visited had grant funds that could have been re-obligated
            since they had completed grant spending. Had the State of Georgia
            established a more effective grant close-out process for its subgrantees, it
            could have re-obligated these left-over funds. However, in each instance,
            funds were not re-obligated.

            In one instance, a jurisdiction had a balance of approximately $50,000 in
            unexpended grant funds from three grants awarded by the State of Georgia
            in FY 2003 Parts I and II and FY 2004. The jurisdiction had completed its
            equipment purchases for all grant years and considered all three awards
            closed. The State of Georgia was carrying the combined $50,000 as
            unexpended obligations, expecting further action from the subgrantee as of
            November 30, 2006.


       The State of Georgia’s Management of State Homeland Security Grants
                  Awarded During Fiscal Years 2002 through 2004

                                    Page 18
     Had the State of Georgia established an effective close-out process with its
     subgrantees, it could have re-obligated the entire $50,000 amount to a
     subgrantee in need of funds.

     Progress Reports - The State of Georgia did not require subgrantees to
     submit progress reports, even though this requirement was included in
     terms and conditions of subgrantee agreements signed in FY 2003 (Part I).
     State of Georgia representatives stated that progress reports were not
     viewed as a high priority, and consequently they did not enforce
     submission. Periodic progress reporting would permit the State of Georgia
     to stay apprised of subgrant activity, as in the example cited above
     regarding unused or outstanding obligation amounts. The progress reports
     could have alerted the State of Georgia that action was needed to avoid the
     risk of having funds lapse.

     Subgrantee Monitoring - The State of Georgia’s control processes over
     subgrantee activity were inadequate and did not address control and
     accountability processes at the local jurisdictions, as generally prescribed in
     the Uniform Administrative Requirements for Grants and Cooperative
     Agreements with State and Local Governments, Title 28, Code of Federal
     Regulations, Part 66. In the past, DHS cited insufficient monitoring at the
     State of Georgia on at least two occasions prior to the start of this audit. In
     May 2005, the DHS External Oversight Division issued a memorandum
     that discussed how the State of Georgia did not maintain adequate policies
     for grant administration and did not have an active monitoring program
     over its subgrantees. DHS reported that the State of Georgia does not
     maintain written policies and procedures, for grant administration, which
     include adequate guidelines for monitoring the fiscal and programmatic
     activities of its subrecipients.

     In a February 2006 memorandum, based on an onsite visit, DHS reported
     that the State of Georgia had no evaluation plan for its programs, had no
     monitoring plans for its subgrantees, and was still experiencing billing
     issues with its prime vendor (Fisher).

     As a result of these DHS assessments, the State of Georgia identified
     jurisdictions it should visit based on a risk assessment conducted according
     to Office of Management and Budget Circular A-133, Audits of States,
     Local Governments, and Non-Profit Organizations. On September 8, 2006,
     the Georgia Emergency Management Agency issued its first programmatic
     and financial monitoring report, a result of its onsite visit to the Athens-
     Clarke County Fire and Emergency Services. (A second onsite visit
     occurred at the Houston County Fire Department in early November 2006;
     we did not verify if a monitoring report was issued.)



The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 19
                            The report on Athens-Clarke County Fire and Emergency Services did not
                            show whether the State of Georgia independently reviewed the
                            jurisdiction’s equipment against the State of Georgia’s equipment records.
                            In addition, property valued at under $5,000 was not reviewed.

                            The Office of Justice Programs Financial Guide contains stipulations
                            regarding disposition of property valued at $5,000 or less. The guide
                            contains no dollar stipulation regarding maintenance of inventory records
                            and, as such, all property must be accounted for.3 A lack of subgrantee
                            monitoring can have several negative outcomes, such as unaccountable
                            equipment, unallowable purchases, and inadequate supporting
                            documentation for equipment purchases. An active subgrantee monitoring
                            process increases the probability that those negative outcomes can be
                            identified.

                            Financial Reporting Capabilities - The State of Georgia reviewed the
                            Athens-Clarke County Fire and Emergency Services’ accounting system
                            and found it to be “adequate,” generally capable of capturing and reporting
                            grant data with accuracy. In the issued Athens-Clarke County report, State
                            of Georgia reviewers did not report that they analyzed and reconciled grant
                            funds against invoices and costs incurred to verify balances relating to
                            obligated and expended amounts.

                            Based on documentation that the State of Georgia provided to us, the
                            Athens-Clarke County Fire and Emergency Services was the only
                            subgrantee accounting system that the State of Georgia reviewed.
                            Accordingly, the State of Georgia did not determine whether the accounting
                            system for each of its subgrantees was adequate.

                            Conclusion

                            The absence of effective monitoring created a situation where many
                            subgrantees had completed grant spending with funds remaining.
                            However, in some instances, the State of Georgia was unaware that
                            subgrantees had unused funds and, therefore, could not re-obligate funds to
                            other priorities.

                            The State of Georgia has recently developed certain written policies and
                            procedures to improve its subgrantee monitoring, and also has started
                            subgrantee site visits. In conjunction with these improvements, the agency
                            could further improve monitoring by implementing minimum control
                            standards for its subgrantees.



3
    The DHS agrees that subgrantees must account for all property, irrespective of dollar amounts.

                      The State of Georgia’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004

                                                    Page 20
Recommendation

       We recommend that the Administrator, Federal Emergency Management
       Agency, advise the State of Georgia to implement a system of controls and
       monitoring processes over its subgrantees to ensure compliance with Title
       28, Code of Federal Regulations, Part 66, or the applicable guidance
       provided, and the Office of Justice Programs Financial Guide
       requirements. For example, the State of Georgia could require subgrantees
       to:

           •    Certify to the State of Georgia that its accounting system is capable
                of capturing and reporting grant data with accuracy.
           •    Conduct equipment inventories bi-annually and certify compliance.
           •    Maintain property records, invoices, and cancelled checks for a
                period of 3 years or until reviewed by the State of Georgia.
           •    Report at least semi-annually on the disposition of grant funds.

State of Georgia Comments

       The State of Georgia does not concur with the finding that controls over
       monitoring subgrantees were not effective. The State of Georgia has an
       effective monitoring program for its subgrantees by use of the program
       managers and All Hazards Councils, and by desk monitoring by the
       Georgia Emergency Management Agency staff. However, the State of
       Georgia does concur that the monitoring program was not comprehensive
       and has begun enhancing its monitoring capacity to include site visits and
       formal documentation.

       The State of Georgia concurs with the recommendation. It will continue to
       assure that the recommendations will be included in contracts with
       subrecipients of grant funding and implement performance measures to
       assure compliance by the subrecipients.

Federal Emergency Management Agency Verbal Comments

       FEMA stated that the State of Georgia is monitoring its subgrantees, with
       the implementation of on-site visits in 2006. FEMA will continue to
       monitor the State of Georgia’s progress with its subgrantee monitoring
       program through its own periodic oversight of the State of Georgia’s grant
       funds and grant activities.

Auditor’s Analysis

       The State of Georgia concurred with the recommendation, stating that its
       contracts with subrecipients will include the type of monitoring controls
       identified in the recommendation. In addition, FEMA stated that it will
  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 21
            provide the necessary oversight to ensure that the State of Georgia is
            addressing its monitoring processes. Therefore, we consider the anticipated
            action by both parties to be adequate.

            The Administrator, Federal Emergency Management Agency, should
            provide corrective actions for the two recommendations and a plan to
            implement those corrective actions within 90 days.

Controls For Claimed Costs Were Not Effective

            The State of Georgia claimed costs from grant funds that were not
            allocable, or may not have been allowable, due to a lack of effective
            controls over labor costs, period of performance monitoring, and
            acquisition methods.

            Labor Costs - The State of Georgia staff labor costs of approximately
            $3.2 million funded from the annual Management and Administrative
            allocation did not represent actual time spent working on a grant effort.
            The State of Georgia established a pre-determined allocation for charging
            staff time against a grant. Office of Management and Budget Circular
            A-87, Cost Principles for State, Local, and Indian Tribal Governments,
            Attachment A, Section E, Direct Costs, requires employees rather than
            management to determine allocations. If an allocation is predetermined,
            this alone precludes it from meeting allocability requirements.

            Period of Performance Monitoring - The State of Georgia permitted six
            subgrantees to claim costs incurred outside of performance dates
            established in the subgrant agreement. In each instance, the agency
            officials stated that verbal agreements allowed the parties to perform
            beyond the original dates.

            Acquisition Methods - The State of Georgia did not monitor sole-source or
            competitive acquisition methods used by four subgrantees. In those four
            examples, agency personnel were under the impression that subgrantee
            agency-specific procurement guidelines relieved them of any oversight
            responsibilities.

            These four examples conflict with the system of controls advocated by
            government grant standards, such as Part III, Chapter 9 (Subawards) and
            Chapter 10 (Procurement Under Awards of Federal Assistance), of the
            Office of Justice Programs Financial Guide, dealing with effective control
            and accountability. Because the State of Georgia did not implement
            effective controls over claimed costs it submitted or costs submitted by its
            subgrantees, the government may have incurred costs not attributable to
            State of Georgia grant performance. In addition, the State of Georgia may


       The State of Georgia’s Management of State Homeland Security Grants
                  Awarded During Fiscal Years 2002 through 2004

                                    Page 22
       have incurred costs that were not economical or within a competitive
       market-rate range.

Recommendations

       We recommend that the Administrator, Federal Emergency Management
       Agency:

       1. Require the State of Georgia to:

           •    Ensure that all State agencies that receive grant funds comply with
                the grant requirements established in Office of Justice Programs
                Financial Guide.
           •    Comply with performance dates as required by the Financial Guide.
           •    Ensure that its submission of claimed labor costs represents actual
                staff time charged to a grant.

       2. Determine the amount of grant funds, if any, which should be
          disallowed due to the inadequate labor distribution system.

State of Georgia Comments

       The State of Georgia does not concur with Auditor’s Finding 4.
       Management and Administration funding expenditures represent actual
       time spent managing and administering the Homeland Security Grants, and
       the State of Georgia is addressing the issue of Period of Performance
       Monitoring.

       The State of Georgia concurs with Recommendation 1. It has and will
       continue to follow the actions recommended.

       The State of Georgia does not concur with Recommendation 2 for the
       reason that no amount of grant funds should be disallowed. The
       government did not incur costs that were not attributable to grant
       performance.

Federal Emergency Management Agency Verbal Comments

       FEMA concurred with these recommendations and believes that the State
       of Georgia must comply with Office of Management and Budget
       requirements regarding labor allocations. FEMA will request that the State
       of Georgia provide justification for labor costs expended against the grant
       awards. While FEMA understands that the State of Georgia is
       implementing new Management and Administration cost processes, FEMA
       will request that the State of Georgia provide documentation to support
       compliance with this finding.

  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 23
     Auditor’s Analysis

            Both the State of Georgia and FEMA concurred with Recommendation 1.
            However, while the State of Georgia did not concur with
            Recommendation 2, we documented during our review that the State of
            Georgia management had pre-determined labor allocations. Nevertheless,
            the action planned by FEMA, to request from the State of Georgia
            justification for labor costs expended, addresses the intent of
            Recommendation 2 and is therefore adequate.

            The Administrator, Federal Emergency Management Agency, should
            provide corrective actions for the two recommendations and a plan to
            implement those corrective actions within 90 days.

Funds Were Not Properly or Timely Allocated
            The State of Georgia did not obligate FY 2004 Law Enforcement Terrorism
            Prevention Program grant funds properly, awarding the entire amount to a
            State agency. As a result of this over $12 million obligation, more than
            $10 million was not made directly available to the local jurisdictions for
            their use as required. In addition, the State of Georgia did not obligate
            funds to local jurisdictions within the 45-day requirement stipulated in
            FY 2003 Parts I and II grant guidelines. Because of this untimely action,
            jurisdictions may not have had sufficient time to plan for use of their grant
            funds. These matters are discussed below.

            FY 2004 Equipment Allocation - The State of Georgia obligated over
            $12 million directly to a State agency, the Georgia Bureau of Investigation,
            bypassing certain grant requirements dealing with the Law Enforcement
            Terrorism Prevention Program portion of the grant. The FY 2004 DHS
            grant guidelines dealing with Law Enforcement Terrorism Prevention
            Program funds require each state to obligate not less than 80 percent of
            Law Enforcement Terrorism Prevention Program funds to local units of
            government within 60 days after grant award. The requirements further
            stipulate that, if requested in writing by a local unit of government (our
            emphasis), the state may retain some or all of the local unit of government’s
            allocation of grant funds for purchases made on behalf of the local unit of
            government. Additional requirements indicate that states holding grant
            funds on behalf of local units of government must enter into a
            Memorandum of Understanding with the local unit of government
            specifying the amount of funds to be retained by the state for purchases.

            The State of Georgia entered into Memorandums of Understanding with
            eight local jurisdictions (primarily small, rural police and sheriff
            departments) representing $1.5 million per Memorandum of Understanding

       The State of Georgia’s Management of State Homeland Security Grants
                  Awarded During Fiscal Years 2002 through 2004

                                    Page 24
       to upgrade the infrastructure of a widely-used law enforcement network.
       The State of Georgia subsequently awarded $12,078,533 to the Georgia
       Bureau of Investigation with DHS awareness and approval. Of the seven
       jurisdictions we interviewed, none had initiated a request, either in writing
       or verbally, for the State of Georgia to retain grant funds on its behalf.

       While the State of Georgia did enter into Memorandums of Understanding
       before awarding $12,078,533 to the Georgia Bureau of Investigation, local
       jurisdictions did not submit written requests for the State of Georgia to act
       on their behalf regarding equipment purchases.

       Finally, all eight Memorandums were signed on March 9, 2004, but the
       effective date of the State’s 2004 award was March 29, 2004. Planning for
       agreements with local jurisdictions is acceptable, however the State of
       Georgia should not enter into agreements with local jurisdictions before
       having received the federal grant award, because this would obligate the
       State without having adequate federal funding to support the obligations.

       FY 2003 Parts I and II Untimely Grant Obligations - The State of
       Georgia did not obligate FY 2003 Parts I and II funds in a timely manner.
       An obligation occurred once the State of Georgia issued the subrecipient or
       local jurisdiction an award letter. A summary of the State of Georgia
       obligations and award notifications follows:

                                           Table 2
                             Summary of Untimely State of Georgia Awards
                                            Days to
          Grant Year        Award Date     Obligate     Days from Award to Notification
                                                        East Point:    110 days
          2003 Part I       May 27, 2003      45        DeKalb:        112 days
                                                        All eight award notifications were made
          2003 Part II      June 4, 2003      45        on 8/19/2003, or after 105 days.
          2004              March 29, 2004    60        All award notifications were timely

       As a result of these delays in FY 2003, jurisdictions may not have had
       adequate time to plan for use of their grant funds.

Recommendations

       We recommend that the Administrator, Federal Emergency Management
       Agency:

       1. Determine the effect, to include the amount of questioned costs, of the
          State’s noncompliance with the local-jurisdiction requirement by
          awarding funds directly to a State agency.



  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 25
       2. Require the State of Georgia to develop internal controls to ensure that
          funds are obligated to local jurisdictions according to grant timeline
          requirements.

State of Georgia Comments

       The State of Georgia does not concur with Auditor’s Finding 5.

       The finding regarding the Law Enforcement Terrorism Prevention Program
       funding allocation is not supported by the facts.

       The federal awarding agency approved the process by which the Law
       Enforcement Terrorism Prevention Program funding was retained by the
       state for use on behalf of local jurisdictions. The local jurisdictions agreed
       to the expenditure of local funds by the state on behalf of the local units of
       government. The State of Georgia complied with all grant requirements in
       this instance.

       The awarding federal agency rescinded the requirement to obligate funds
       within 60 days for the FY 2003 Part 2 funds. The obligation periods for the
       FY 2003 Part 1 funds were set by the Grant Adjustment Notices as each
       budget was approved by DHS, and not measured by the Grant Award date.
       The Auditor’s findings related to this issue do not support the conclusion
       that the State of Georgia failed to comply with the obligation timeliness
       requirements.

       The State of Georgia does not concur with the recommendations because
       the State of Georgia was compliant. It did not award local share funds to
       non-local jurisdictions, and the State of Georgia met the grant timeline
       requirements set by the federal awarding agency.

       The State of Georgia also provided comments on an issue included in the
       draft report involving FY 2002 funds allocated to a mutual aid group as a
       local jurisdiction. This section was deleted from the final report.

Federal Emergency Management Agency Verbal Comments

       FEMA did not concur with the finding and recommendations.

Auditor’s Analysis

       The two recommendations remain unresolved since both FEMA and the
       State of Georgia did not concur with either the finding or recommendations.
       In addition, FEMA did not address the issues regarding the Law
       Enforcement Terrorism Prevention Program funding or the non-compliance
       with FY 2003 Parts I and II.

  The State of Georgia’s Management of State Homeland Security Grants
             Awarded During Fiscal Years 2002 through 2004

                               Page 26
     Regarding the Law Enforcement Terrorism Prevention Program issue, we
     believe that FEMA should seek a determination from the Office of General
     Counsel affirming the process the State of Georgia pursued in allocating
     Law Enforcement Terrorism Prevention Program funds.

     Another issue involving FY 2002 funds allocated to a mutual aid group as a
     local jurisdiction was originally included in the draft report, and addressed
     by Georgia Emergency Management Agency in its comments. Due to
     differences in interpretation and no criteria in 2002 to define a local
     jurisdiction, this section was deleted from the final report.

     The Administrator, Federal Emergency Management Agency, should
     provide corrective actions for the two recommendations and a plan to
     implement those corrective actions within 90 days.




The State of Georgia’s Management of State Homeland Security Grants
           Awarded During Fiscal Years 2002 through 2004

                             Page 27
Appendix A
Objectives, Scope, and Methodology

                          The audit objectives were to determine if the State of Georgia effectively and
                          efficiently implemented the first responder grant programs, achieved program
                          goals, and spent funds awarded according to grant requirements. The audit
                          goal was to identify problems and solutions that would help the State of
                          Georgia prepare for and respond to terrorist attacks.

                          The scope of the audit included the following grant programs. These
                          programs are described in the Background section of this report.

                              •    Fiscal Year (FY) 2002 State Domestic Preparedness Program
                              •    FY 2003 Parts I and II of the State Homeland Security Grant
                                   Program
                              •    FY 2004 State Homeland Security Grant Program

                          The audit methodology included work at the Georgia Emergency
                          Management Agency headquarters, the State of Georgia’s offices responsible
                          for grant management, and the following State agency and local jurisdiction
                          subgrantees:

                                                                                                 All Hazards
                          Location                               Visit Dates (2006)             Council Region
                          Albany Police Department                November 14-15                      2
                          De Kalb County Police Department        November 6-7                        7
                          East Point Fire Department              November 16-17                      7
                          Houston County Fire Department          November 16-17                      8
                          Kingsland Fire Department               Desk Review (2007)                  5
                          Paulding County Board of Commissioners  November 14-15                      6
                          Savannah Fire Department                December 11-12                      5
                          Southside Fire Department               December 12-13                      5

                          Visit purposes were to obtain an understanding of the four grant programs
                          and assess how well the programs were being managed. Our audit
                          considered the State of Georgia and its policies and procedures, as well as
                          applicable federal requirements. We reviewed documentation received from
                          the Georgia Emergency Management Agency, State of Georgia offices, and
                          subgrantees. We interviewed appropriate officials, reviewed documentation
                          provided by the State of Georgia and subgrantee personnel responsible for
                          managing grant funds, and physically inspected some of the equipment
                          procured with grant funds.

                          In addition, we reviewed the State of Georgia costs incurred for planning,
                          management and administration, and exercises, as well as the incurred
                          equipment costs of state agencies in the State of Georgia.4
4
  Regarding the review of costs incurred by the Georgia Emergency Management Agency and State agencies,
we selected 21 expense items and acquisitions to review. For example, we reviewed State of Georgia staff
labor costs and costs incurred to prepare the State Homeland Security strategies and reviewed incurred costs
for equipment and consultant services at State agencies.

                    The State of Georgia’s Management of State Homeland Security Grants
                               Awarded During Fiscal Years 2002 through 2004

                                                   Page 28
Appendix A
Objectives, Scope, and Methodology (continued)


                         We also reviewed prior audit reports dealing with first responder subject
                         matter, such as reports from the Government Accountability Office and the
                         House Committee on Appropriations Survey and Investigative Staff. We
                         conducted the audit between September 2006 and March 2007 and performed
                         the work according to the Government Auditing Standards prescribed by the
                         Comptroller General of the United States.

                         This was primarily a performance rather than a compliance audit performed
                         by a Department of Homeland Security, Office of Inspector General
                         contractor. We were not engaged to and did not perform a financial
                         statement audit, the objective of which would be to express an opinion on
                         specified elements, accounts, or items. Accordingly, we were neither
                         required to nor expressed an opinion on costs claimed for grant programs
                         included in the scope of the audit. Had we been required and performed
                         additional procedures or conducted an audit of financial statements according
                         to generally accepted auditing standards, other matters might have come to
                         our attention that would have been reported. This report relates only to the
                         programs specified and does not extend to any financial statements of the
                         State of Georgia.

                         While the audit work was performed and the report was prepared under
                         contract, audit results are being reported by the Department of Homeland
                         Security, Office of Inspector General, to appropriate officials within the
                         Federal Emergency Management Agency and the State of Georgia.




                   The State of Georgia’s Management of State Homeland Security Grants
                              Awarded During Fiscal Years 2002 through 2004

                                                 Page 29
Appendix B
Georgia Office of Homeland Security Organization Chart

                                  Georgia Office of Homeland Security Organization Chart
                                               (Effective from 1999 – Present)


                                                                 Governor
                                                               Sonny Perdue

                                                               Director GEMA
                                                               Charley English



                                        Assistant Director of                 Assistant Director of
                                             Programs                           Administration
                                             Terry Ball                          Donna Burns

                                                                                     Public
                                                                                     Affairs

                            Hazard             Finance           Operations        Terrorism            Public
                           Mitigation                                                                 Assistance




                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 30
       Appendix C
       State of Georgia Response

                       Georgia Emergency Management Agency

Sonny Perdue                                                                                         Charley English
Governor                                                                                                   Director




                                                State of Georgia
                                                   Response to
                                           Office of Inspector General
                                       Department of Homeland Security
                                              Audit Report Entitled
                      The State of Georgia’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004
                                               September 18, 2007


       The State of Georgia appreciates the opportunity to make these comments regarding the Office of
       Inspector General Department of Homeland Security Audit Report for State Homeland Security
       Grants Awarded during Fiscal Years 2002 through 2004.

       Auditor’s Finding 1:

       Georgia’s 2003 Strategy Did Not Identify Needs or Address Evaluation Processes Adequately

       Executive Summary of Response to Auditor’s Finding 1:

       The State of Georgia does not concur with Auditor’s Finding 1 for the following reasons:

       The Office of Domestic Preparedness (ODP) approved the 2003 State Strategic Plan. The Georgia
       Emergency Management Agency (GEMA) complied with the requirements which were a condition
       precedent to receiving the grant award. The State’s emphasis was on administering the grant to
       effectively enhance capabilities according to the goals of the grant program due to all levels of
       government placing a greater emphasis, during the grant years under review, in building capabilities
       than on developing performance measures.

       The State of Georgia concurs with the recommendation that we implement improvements in the
       performance measurement procedures. The State has institutionalized performance measures and is
       currently formalizing performance measure procedures.


                               The State of Georgia’s Management of State Homeland Security Grants
                                          Awarded During Fiscal Years 2002 through 2004

                                                            Page 31
Appendix C
State of Georgia Response

Georgia’s Response to Auditor’s Finding 1:

The 2003 State Strategic Plan (SSP) was approved by ODP. ODP accepted the SSP and awarded
grants and drawdowns of grant funding after review and acceptance of the SSP, which was a
precondition to drawdown of funds. All funding allocations for 2003 were approved by ODP prior
to drawdown of funds or expenditures. ODP has monitored programs and accepted CAPRs for all of
the funding and program evaluations, and this review by ODP was how the SAA “demonstrate[d]
how it evaluated the progress of . . . goals and objectives.” Likewise the needs assessment was
evaluated and approved by ODP each year in approving the specific subgrant awards prior to
expenditures.

During the grant periods under review, there was a greater emphasis at all levels of government in
building capabilities than on developing performance measures, and, thus, the State’s emphasis was
on administering the grant to effectively enhance capabilities according to the goals of the grant
program. Nevertheless, Georgia complied with the requirements which were a condition precedent
to receiving the grant awards.

While the State of Georgia did comply with ODP grant requirements for the grant years under
review, the State concurs with the recommendation that we implement performance measurement
procedures. Although the performance measures previously used were not as formal as they could
have been, the State is formalizing the procedures and has documents that refer back to our progress.
Since FY 2006, performance measures have been included in the State’s applications for Homeland
Security Grant Program funding.

Auditor’s Finding 2:

Controls over Centralized Purchases of Equipment were not Effective

Executive Summary of Response to Auditor’s Finding 2:

The State of Georgia does not concur with Auditor’s Finding 2 for the following reasons:

The State does not concur that it did not have “effective controls.” The Audit Report overstates the
issue regarding the purchases made through the ODP-approved prime vendor, the Defense Logistics
Agency (DLA). Regarding the State’s use of the ODP-approved prime vendor, the issues are being
resolved by an internal reconciliation.

The finding that Georgia “had weak and absent controls” is inaccurate, overbroad and not supported
by the examples given in the report. GEMA did coordinate both the order and receipt of equipment
with local jurisdictions. All subgrantees were informed of the award and what the order would
include through the budget worksheet process. Fire personnel responsible for deliveries of Georgia
Search and Rescue (GSAR) equipment to the warehouse in Atlanta have provided paperwork
showing receipt of the equipment. The GEMA Fire Services Program Manager communicated with
the teams throughout the process to assure receipt, training and use of the equipment. The GSAR



                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 32
Appendix C
State of Georgia Response

equipment was in use by the GSAR teams by May 2004 for use by the teams to save lives. To say
there are no chain-of custody controls is an overstatement.

The State of Georgia concurs with the recommendations which reflect the process which the State
currently utilizes and continues to practice.

Georgia’s Response to Auditor’s Finding 2:

The Audit Report overstates the issues involved and the phrases, “Controls . . . were not Effective”
and “there is no reasonable assurance that the invoices, totaling approximately $10.9 million . . .
were accurate or reliable” should be modified to reflect a more appropriate statement of the situation.
The phrase “Controls . . . were not Effective” should be restated to say “Controls . . . were not
Sufficient”. The last sentence should be stated as: “Because of these insufficient controls, Georgia
cannot demonstrate conclusively that the invoices totaling approximately $10.9 million and
subsequent payments to DLA, totaling $10.1 million, were accurate.”

Georgia Emergency Management Agency (GEMA) staff is performing an internal reconciliation of
Fisher payments and deliveries. At this time, GEMA believes overcharges, if any, will be minimal
and immaterial based on undelivered equipment or equipment delivered in error. Furthermore,
payment matching issues have been isolated to four large purchases and have not been problematic
on smaller purchases. Given this, GEMA has determined that an independent review would not be
cost beneficial. Overcharges, if any, discovered will be collected from the vendor through a credit
memo or offset against future invoices. The GEMA is improving the payment and receiving process
and reconciling payment records to receiving records. No invoices were paid that did not match to
the original order. The GEMA is reconciling these payments to receiving records now and does not
expect to discover material discrepancies in equipment paid for and equipment received. Any
discrepancies found will be either billed back to the vendor or netted from future payments.

 The State acknowledges the need to improve controls. Initially, Georgia used the ODP-approved
and recommended DLA Prime Vendor program, with the understanding that the process would
enable local subgrantees to more expeditiously enhance capabilities without having to expend their
funding and seek reimbursement. Ironically, the use of the ODP-approved prime vendor, DLA,
contributed to the issue of “weak controls” and reconciliation. To correct this problem, GEMA has
begun using the National Association of State Purchasing Officers contract. Under this contract,
purchase orders are issued with firm unit pricing and quantities, required validated, authorized
signed-off receiving records, and matched invoices to improve this process. This process has
dramatically improved the State’s ability to monitor, track and process procurements.

The State concurs with the recommendation 1. The State currently utilizes and continues to practice
the recommended procedures. The State also welcomes a review of the new process and any
suggestions on how the new process could be improved to ensure purchase and inventory controls
meet or exceed the applicable standards.

The finding that Georgia “had weak and absent controls” is inaccurate, overbroad and not supported
by the examples given in the discussion of this finding. Georgia did coordinate both the order and

                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 33
Appendix C
State of Georgia Response

receipt of equipment with local jurisdictions. First, all subgrantees were informed of their order
approval of award and instructed as to what that order would be through the budget worksheet
process. Receipt was coordinated by scheduling delivery to specific addresses and having fire
fighter personnel validate receipt of equipment. The fire personnel responsible for deliveries of
Georgia Search and Rescue equipment to the Atlanta Warehouse have provided paperwork which
GEMA is reviewing and using in its reconciliation process. Consequently to say there are no chain-
of custody controls is an overstatement.

Before, during and after the distribution of this equipment to the GSAR team members, the GEMA
Fire Services Program Manager was in continual contact with the member teams to verify receipt,
training and use of the equipment. The equipment was in almost immediate use after delivery and
has been in use saving lives since May 2004 at which time the fully equipped GSAR teams were
capable and available for deployment to any WMD or natural disaster event. If the delivery of the
$10.9 million in equipment had been in dispute by the GSAR team members, the equipment could
not have been deployed and in operational use saving lives.

Similarly, in the fourth paragraph of the discussion of this finding, the report includes the misleading
statement, “In that instance the chain-of-custody processes were especially weak.” The words
“especially weak” should be changed to “in this instance found to be insufficient” in order to more
specifically relate to the particular finding rather than making an overbroad implication unsupported
by specific findings in other instances. There was chain of custody. The State scheduled the
delivery of this equipment to a specifically designated and locked area within the City of Atlanta
Fire Department warehouse, and had local fire personnel validate receipt of the equipment. These
same fire personnel also were responsible for distributing this equipment to the appropriate GSAR
and HazMat teams. The Audit Report states, “The chief often was not immediately available when
the . . . shipments arrived . . . because of his assigned work schedule.” This statement does not
support the conclusion that the State did not have effective controls over centralized purchases of
equipment, especially in view of the fact that deliveries were contained within that locked area
within the warehouse, awaiting the chief’s arrival and processing of the deliveries. Although, the
State acknowledges that this chain-of-custody was not maintained in every instance, the statement
that Georgia “had weak and absent controls” in this instance is not supported by the findings. As
acknowledged in the Audit Report, GEMA was authorized to use the state procurement laws. Also,
as acknowledged in the report, GEMA knew that a custodian had been designated to receive the
Georgia Search and Rescue equipment delivered to the Atlanta warehouse by Fisher. Also, as stated
in the draft audit report, “the [designated custodian] would reconcile actual physical Georgia Search
and Rescue equipment delivered by Fisher against shipping records that the administrative employee
signed. As a result of these efforts, the chief maintained a spreadsheet that identified all missing
items . . . shipped to the Atlanta warehouse.” The process described in the report does not support a
finding that the “chain-of-custody process” was “especially weak” nor the finding that controls over
centralized purchases were not effective as stated in the “Centralized Purchases” section. The
finding, as it pertains to the “Centralized Purchases” section, should be removed or restated to say
the “controls were not sufficient.”




                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 34
Appendix C
State of Georgia Response

Auditor’s Finding 3:

Controls over Monitoring Subgrantees were not Effective.

Executive Summary of Response to Auditor’s Finding 3:

The State of Georgia does not concur with the finding that controls over monitoring subgrantees
were not effective. The State has an effective monitoring program for its subgrantees by use of the
GEMA program managers and All Hazards Councils and by desk monitoring by GEMA staff.
However, the State does concur that the monitoring program was not comprehensive and has begun
enhancing its monitoring capacity to include site visits and formal documentation.

The State concurs with the recommendations. The State will continue to assure that the
recommendations will be included in contracts with subrecipients of grant funding and implement
performance measures to assure compliance by the subrecipients.

Georgia’s Response to Auditor’s Finding 3:

The State of Georgia does not concur with Auditor’s Finding 3 for the following reasons:

Georgia has implemented a monitoring program. The State acknowledges that it is in the early
implementation stages of this program. Initially, more emphasis was placed on establishment of the
Homeland Security Grant Program and the awarding of subgrants. During this time, the State relied
predominantly on desk monitoring and monitoring activities of the GEMA program managers and
the All Hazards Councils. The first grant period during which major capital was infused into the
State by the grant program was in 2002, just after September 11, 2001, when, by general agreement
at all levels of government, the emphasis of the program was to enhance capabilities as quickly and
efficiently as possible. The State will be further enhancing its monitoring capacity by executing a
comprehensive monitoring package during the current program year. The GEMA program
managers will continue to monitor the subgrantees, and desktop monitoring will continue.

The State does have close-out processes and procedures. While the processes and procedures may
not be efficient, they do exist. The State determines future funding and/or equipment needs through
communications with the subgrantees regarding both progress payments and final payments. The
State assesses the status of the subgrantee’s project and budget at those times. If all equipment
purchases have been made and there are funds remaining, the subgrantee generally requests
additional purchases against the remaining funds. The need is assessed. If approved, budget
revisions are made which do not allow the closure of the subgrant at that time. This process occurs
frequently. Although the closure process is not efficient, there is a process in place which allows
GEMA “to determine the amount of unused grants funds and re-obligate them to other funding
priorities...”

Subgrantees are required to submit written Progress Reports. However, as stated above, the constant
communication between the State and the subgrantees allows the State to make determinations to re-
obligate funds “regarding unused or outstanding obligation amounts.” Currently, more effective

                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 35
Appendix C
State of Georgia Response

controls have been put in place within the State to more accurately monitor the submittal of written
progress reports.

The Audit Report discussion of “Inaccurate and Untimely Obligation Information” is not accurate.
The State does “maintain controls over the obligation of funds awarded to the local jurisdictions
from the time of the award through the obligation and expenditure process to the liquidation and
closeout process.” Obligation and expenditure data is submitted to GEMA by an independent
contractor that tracks funds based on approved budget worksheets. This information is updated
weekly and is available to access through use of common network drives for the agency as a whole.

The State concurs with the recommendations. The subgrantee agreements signed by recipients of
grant funding include their agreement to comply with all requirements included in the grant guidance
as well as the special conditions included with the State’s award. The subgrantees are also under
contract to comply with all requirements of the relevant Financial Guide governing the grant,
including requirements for inventories, audits, and financial reporting. The State will continue to
assure that the recommendations will be included in contracts with subrecipients of grant funding
and take performance measures to assure compliance by the subrecipients.


Auditor’s Finding 4:

Controls over Claimed Costs were not Effective.

Executive Summary of Response to Auditor’s Finding 4:

The State of Georgia does not concur with Auditor’s Finding 4. Management and Administration
(M&A) funding expenditures represent actual time spent managing and administering the Homeland
Security Grants, and the State is addressing the issue of Period of Performance Monitoring.

The State concurs with Recommendation 1. The State has and will continue to follow the actions
recommended.

The State does not concur with Recommendation 2 for the reason that no amount of grant funds
should be disallowed. The government did not incur costs not attributable to grant performance.

Georgia’s Response to Auditor’s Finding 4:

The State of Georgia does not concur with Auditor’s Finding 4 for the following reasons:

The Audit Report fails to acknowledge that Georgia is currently implementing new procedures for
the recording of management and administration (M&A) expenditures, that the aggregate allocation
of M&A expenditures represents the actual time spent working on Homeland Security Grants, and
that the State is addressing the issue of Period Performance Monitoring.




                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 36
Appendix C
State of Georgia Response

Regarding Acquisition Methods, state agencies and local governments are legally required to accept
lowest responsive bids.

The statement that GEMA “may have” incurred costs not attributable to Georgia’s grant
performance and “may have” incurred costs that were not economical or within a competitive
market-rate range are not findings supporting the conclusion that controls over claimed costs were
not effective. The recommendations regarding compliance with the OJP Financial Guide would only
be applicable to DHS grants prior to FY 2006 when a new financial guide was issued for the
Homeland Security Grant Program.

As stated in the Executive Summary above, the State concurs with Recommendation 1 since it has
been compliant with this recommendation and will continue to comply.

The State does not concur with Recommendation 2. Even the finding does not show any misconduct
or misuse of funding by the State. The M&A expenditures represent actual time spent managing and
administering the grants.

Auditor’s Finding 5:

Funds were not Properly or Timely Allocated

Executive Summary of Response to Auditor’s Finding 5:

The State of Georgia does not concur with Auditor’s Finding 5.

The findings regarding GMAG and the LETPP funding allocations are not supported by the facts.
Under Georgia law, O.C.G.A. §25-6-2, the Georgia Mutual Aid Group is a local unit of government,
and the State complied with grant guidance in awarding local share funding to the local unit of
government. The clear language of the Georgia statute and the facts presented by the State show that
a portion of the 80% local share funding was properly allocated to GMAG as a local unit of
government.

The federal awarding agency approved the process by which the LETPP funding was retained by the
state for use on behalf of local jurisdictions. The local jurisdictions agreed to the expenditure of
local funds by the state on behalf of the local units of government. The State complied with all grant
requirements in this instance.

The awarding federal agency rescinded the requirement to obligate funds within 60 days for the FY
2003 Part 2 funds. The obligation period for the FY 2003 Part 1 funds were set by the Grant
Adjustment Notices as each budget was approved by ODP, not measured by the Grant Award date.
The Auditor’s findings related to this issue do not support the conclusion that the State failed to
comply with the obligation timeliness requirements.




                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 37
Appendix C
State of Georgia Response

The State does not concur with the Recommendations because the State was not noncompliant. The
State did not award local share funds to non-local jurisdictions, and the State met the grant timeline
requirements set by the federal awarding agency.

Georgia’s Response to Auditor’s Finding 5:

The State of Georgia does not concur with Auditor’s Finding 5 for the following reasons:

All language regarding the 80% local obligation requirement should be deleted. The Official Code
of Georgia Annotated (OCGA) §25-6-2 defines a mutual aid group such as Georgia Mutual Aid
Group (GMAG) as two or more jurisdictions authorizing “their respective fire departments to render
aid and assistance in the extinguishment of fires or other immediate response emergencies outside of
their respective jurisdictions . . .” Furthermore OCGA §25-6-1 defines jurisdiction as “ . . . a local
governmental subdivision . . .” Because GMAG is a mutual aid group rendering aid and assistance in
immediate response emergencies for local jurisdictions and is composed of local governmental
subdivisions, it is incorrect to say GMAG does not meet the definition of a local governmental
jurisdiction and does not enable the State to comply with the 80% obligation requirement. The
Audit finding ignores the clear language of the state statute. The funding was not allocated to
GMAG on behalf of local jurisdictions, but to GMAG as a local unit of government.

All language regarding the State not obligating FY 2004 LETPP grant funds properly should be
deleted. The State submitted to the auditor, as an enclosure to letter from Charley English, GEMA
Director, dated May 2, 2007, a copy of an e-mail from the U.S. Department of Homeland Security
specifically approving the procurement process used to obligate the FY 2004 LETPP grant funds.
The discussion in the Audit Report regarding the Law Enforcement Terrorism Prevention Program
funding used by the State on behalf of local units of government fails to acknowledge the prior
approval of the procurement process by DHS as evidenced by the e-mail referred to above. The
State executed memoranda of understanding with eight local jurisdictions to implement a
Computerized Criminal History project utilizing the Georgia Bureau of Investigation’s system. ODP
approved this method of obligation prior to the implementation of the project. All eight jurisdictions
were agreeable to this method of obligation. The discussion in the Audit Report regarding the
initiation of the request and the “written requests,” also ignores the prior approval by DHS and no
authority is given to show noncompliance with the guidance. The Audit Report states “The
requirements further stipulated that if requested in writing by a local unit of government (our
emphasis), the state may retain some or all of the local unit of government’s allocation . . . “ In the
next paragraph, the Audit Report acknowledges that the State entered into Memorandums of
Understanding (MOUs) with eight local jurisdictions. Signing an MOU with the State for the state
to retain and use funding on behalf of local jurisdiction is a request in writing. This procurement
model was used to ensure uniformity, consistency and timeliness in the implementation of the
project. per the agreed upon ODP approved memorandum of understanding.

All language regarding the SAA not meeting the 45-day obligation period should be deleted. The
State submitted to the auditor as an enclosure to letter dated May 2, 2007 from Charley English,
GEMA Director, a copy of a Grant Adjustment Notification from the U.S. Department of Homeland
Security rescinding the special condition to obligate within 45 days. The award letters for FY 2003

                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 38
Appendix C
State of Georgia Response

Part 1 could not be mailed out prior to approval by ODP of the detailed budget worksheet and
project narrative, and, upon approval, ODP started an obligation period for the particular approved
subawards.

The State does not concur with the Recommendations because the State was not noncompliant. The
State did not award local share funds to non-local jurisdictions, and the State met the grant timeline
requirements of the federal awarding agency.




                        The State of Georgia’s Management of State Homeland Security Grants
                                   Awarded During Fiscal Years 2002 through 2004

                                                     Page 39
Appendix D
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary, Public Affairs
                      Assistant Secretary, Policy
                      Assistant Secretary, Legislative Affairs
                      DHS OIG Liaison
                      Chief Privacy Officer

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Deputy Administrator, National Preparedness Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison
                      National Preparedness Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee, as appropriate




                      The State of Georgia’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004

                                                   Page 40
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building
          410, Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
